Prepared by: BARRINGTON TAYLOR
Cdomrywlda BankrNrAT

Branch #: 0000869
1300 SAWGRASS CORP PKWY, #250
SUNRISE, FL 33323
Phone: (866)751-5767
Br Fax No.: (800)291-8910

DATE:
10/05/2005
CASE#:
DOC ID#:
00011380375410005
BORROWER: JOHN b. freitas
PROPERTY ADDRESS: 3654 9 CEDAR BLVD
NEWARK, CA 94560-2532

LEGAL DESCRIPTION EXfflBIT A

FHA/VA/CONV
• Legal Description Exhibit A
1C404-XX (04/03)(d)

* 2 3 9 9 1 *

•' 1 1 38037540500010968*

• •- *

TV*.

Order No. 51692290-1692290-49

EXHIBIT "ONI?
Parcel 1, as shwon on that Parcel Map filed for record in the office fo the Recorder of the
County of Alameda, State of California* on July 30,1973, in Book 79 of Maps, page 97.
Assessor's Parcel No: 092A-0985-021

2

(Rev. 11/17/04)

ILLEGIBLE NOTARY SEAL DECLARATION
(GOVERNMENT CODE 27361.7)
I DECLARE UNDER PENALTY OF PERJURYTHAT THE NOTARY
SEAL ON THE'DOCUMENT TO WHICH THIS STATEMENT IS
ATTACHED, READS AS FOLLOWS:

NAME OF NOTARY PUBLIC:’

.......—.... van1'

COMMISSION NUMBER:
NOTARY PUBLIC STATE:
COUNTY:
MY COMM. EXPIRES:
(DATE)

SIGNATURE OF DECLARANT:
PRINT NAME OF DECLARANT:

S. Giron

CITY AND STATE OF EXECUTION: OAKLAND. CA
DATE SIGNED:

!&/ iR / m
THE ABOVE INFORMATION MUST BE LEGIBLE FOR SCANNING

APPENDIX
Case #1.9-17394
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

John B, Freitas
Plaintiff-Appellant,
v.
Bank of America,
Defendant- Appellee

APPENDIX N
THE CONSTITUTION OF THE UNITED STATES. 14th AMENDMENT. SI

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case# DC. No. 3:19-cv-03347-WHA

The Constitution of the United States, 14th Amendment, §1 and § 3;
§1 (See Petitioner’s Appendix N)
The Constitution of the United States, 14th Amendment, §1 and § 3;

United States Constitution - Fourteenth Amendment
Section 1

the Fourteenth Amendment, § 1;
“No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any state deprive any
person of life, liberty, property and the pursuit of
happiness without due process of law; nor deny to
any person within its jurisdiction the equal
protection of the law”;

APPENDIX
Case #19-17394
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

John B. Freitas
Plaintiff-Appellant,
v.
B ank of America,
Defendant- Appellee

APPENDIX O
THE CONSTITUTION OF THE UNITED STATES, 14™ AMENDMENT, S3

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case # D.C. No. 3:19-cv-03347-WHA

The Constitution of the United States, 14th Amendment, §1 and § 3;
§3 See Petitioner’s Appendix, O

United States Constitution - Fourteenth Amendment
Section 3

No Person shall be a Senator or Representative in
Congress, or elector of President and Vice-President, or
hold any office, civil or military, under the United States,
or under any State, who, having previously taken an oath,
as a member of Congress, or as an officer of the United
States, or as a member of any State legislature, or as an
executive or judicial officer of any State, to support the
Constitution of the United States, shall have engaged in
insurrection or rebellion against the same, or given aid
or comfort to the enemies thereof.
But Congress may by a vote of two-thirds of each House,
remove such disability.

APPENDIX
Case #19-17394
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

John B. Freitas
Plaintiff* Appellant,
v.
Bank of America,
Defendant- Appellee

APPENDIX P
THE CONSTITUTION OF THE STATE OF CALIFORNIA; DUE
PROCESS AND EQUAL PROTECTION CLAUSES

On Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Case # D.C. No. 3:19-cv-03347-WHA

The Constitution of the State of California; due process
and equal protection clauses. See PA : P

Universal Citation: CA Constitution art I § 7. SEC. 7. (a) A
person may not be deprived of life, liberty, or property
without due process of law or denied equal protection of the
laws; provided, that nothing contained herein or elsewhere in
this Constitution imposes upon the State of California or any
public entity, board, or official any obligations or
responsibilities which exceed those imposed by the Equal
Protection Clause of the 14th Amendment to the United States

